                                    

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Internal Controls Needed
                     to Control Costs of
                     Emergency and Rapid
                     Response Services Contracts,
                     as Exemplified in Region 6
                     Report No. 14-P-0109                    February 4, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Janet Kasper
                                                    Michael Petscavage
                                                    Andrés Calderón
                                                    David Penman
                                                    Melinda Burks




Abbreviations

CO             Contracting Officer
EPA            U.S. Environmental Protection Agency
ERRS           Emergency and Rapid Response Services
FAR            Federal Acquisition Regulation
G&A            General and Administrative
OAM            Office of Acquisition Management
ODC            Other Direct Cost
OIG            Office of Inspector General
PO             Project Officer
QAP            Quality Assurance Program



Hotline 	                                      Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

us through one of the following methods:       contact us through one of the following methods:


email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:	   EPA Inspector General Hotline        write:    EPA Inspector General 

          1200 Pennsylvania Avenue, NW 
                 1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T 

          Washington, DC 20460
                          Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                  14-P-0109
                                                                                                          February 4, 2014
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Internal Controls Needed to Control Costs of
The purpose of this review was
                                    Emergency and Rapid Response Services Contracts,
to determine whether the            as Exemplified in Region 6
U.S. Environmental Protection
Agency’s (EPA’s) Region 6 is         What We Found
managing task orders under
the Emergency and Rapid             Region 6 manages field activities under the ERRS contracts within the terms of
Response Services (ERRS)            the contract. However, our review of task order files and invoices submitted under
contracts effectively and           those task orders showed us that infrequent internal control reviews and
whether contractors are billing     inadequate staffing levels hamper Region 6’s ability to prevent and detect many
Region 6 in accordance with         contract management shortcomings, such as:
contract terms.
                                                                                             Improper application of
                                       Performing required annual invoice reviews.       general and administrative
Region 6 awarded its two               Monitoring contractor adjustment vouchers.        rates resulted in higher
current ERRS contracts                 Receiving prime contractor negotiated team        costs to the government.
(EP-S6-07-01 and EP-S6-07-              subcontract agreements on time.
02) in May 2007. At the time of        Correctly coding task orders in the EPA Acquisition System.
our preliminary review,                Performing adequate internal control reviews.
EP-S6-07-01 had 124 issued
task orders and EP-S6-07-02         Without adequate staffing levels, Region 6 is unable to conduct internal control
had 50 issued task orders.          reviews. Such reviews are a tool for ensuring that products comply with
The combined total expended         regulations and are consistently of high quality. Without internal control reviews,
amount on both contracts was        crucial aspects in the acquisition cycle cannot be assessed and management
$77,579,001 as of October           cannot determine and properly address weaknesses and vulnerabilities.
2012.
                                    We identified two conditions that resulted in higher costs to the government. One
This report addresses the           prime contractor was applying a general and administrative indirect rate to its
following EPA theme:                team subcontractors’ other direct costs, which went against the prime contractor’s
                                    proposal and indirect cost rate letter. Also, both prime contractors were receiving
  Embracing EPA as a high          additional profit because the fixed labor rates negotiated between the EPA and
   performing organization.         the ERRS prime contractors were based solely on the prime’s labor rates.

                                     Recommendations and Planned Corrective Actions
                                    We recommend that the Region 6 Regional Administrator require procurement
                                    personnel to conduct internal control reviews twice a year or declare contract
                                    management as a weakness in Region 6’s next Federal Managers’ Financial
                                    Integrity Act submission until Region 6 starts conducting internal control reviews.
                                    We also recommend that the Regional Administrator address issues related to
                                    subcontract other direct costs in the existing ERRS contracts, and require that
For further information,            proposals for future ERRS contracts include subcontractor rates as required.
contact our public affairs office
at (202) 566-2391.                  Region 6 concurred with three out of five recommendations. Region 6 did not
                                    concur with recommendations 3 and 4, to require the contractor to adjust all
The full report is at:              billings to reflect application of the correct rate to team subcontract other direct
www.epa.gov/oig/reports/2014/       costs, and to modify future billings. Region 6 believes the amounts involved are
20140204-14-P-0109.pdf              immaterial and do not justify the investment in time that would be needed to
                                    adjust all past invoices. These recommendations remain unresolved.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL


                                            February 4, 2014

MEMORANDUM

SUBJECT:	 Internal Controls Needed to Control Costs of Emergency and
          Rapid Response Services Contracts, as Exemplified in Region 6
          Report No. 14-P-0109

FROM:	         Arthur A. Elkins Jr.

TO:	           Ronald Curry, Regional Administrator
               Region 6

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. EPA agreed with three
recommendations and provided corrective actions with completion dates, and these recommendations
are considered resolved. For the other two recommendations, the agency disagreed and these
recommendations will be resolved through the audit resolution process. EPA managers, in accordance
with established audit resolution procedures, will make final determinations on matters in this report.

The audit report identifies improvements that can be made to the Emergency and Rapid Response
Services (ERRS) contracts in Region 6. Other regions also have similar contracts. The OIG encourages
other regions to review the issues in this report and determine whether they may exist for their ERRS
contracts. Addressing such issues will assist in controlling costs, which is imperative in the current
budget environment. If you have any questions about the issues in the report, please contact the
OIG staff listed below.

Action Required

In accordance with EPA Manual 2750, the resolution process begins immediately with the issuance of
this report. We are requesting a meeting within 30 days between the Region 6 Regional Administrator
and the OIG’s Assistant Inspector General for Audit. If resolution is still not reached, the Region 6
Regional Administrator is required to complete and submit the dispute resolution request to the
Chief Financial Officer to continue resolution.

We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Janet Kasper, Product Line Director, at (312) 886-3059 or kasper.janet@epa.gov.
Internal Controls Needed to Control Costs of Emergency and                                                                   14-P-0109
Rapid Response Services Contracts, as Exemplified in Region 6 




                                    Table of Contents 


Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Scope and Methodology ..............................................................................               1     

                 Prior Audit Coverage ...................................................................................           2     


   2	    Region 6 Needs More Frequent Internal Control Reviews .............................                                        3


                 Contract Management Aspects Contained in EPA Guidance .....................                                        3

                 Effective Contract Management Lacking in Crucial Areas ..........................                                  4

                 Infrequent Internal Control Reviews Hinder Effective 

                        Contract Management ......................................................................                  5

                 Recommendations ......................................................................................             6     

                 Agency Response and OIG Evaluation .......................................................                         6


   3	    Contractor Applying G&A Rate Inconsistent With Rate Letter ......................                                          7


                 Recommendations ......................................................................................             8     

                 Agency Response and OIG Evaluation .......................................................                         8


   4	    By Not Separating Subcontracted Labor Rates, 

         Prime Contractors Receiving Additional Profit ...............................................                             10 


                 Recommendation ........................................................................................           11     

                 Agency Response and OIG Evaluation .......................................................                        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                         12 




Appendices
   A	    Agency Response to Draft Report and OIG Evaluation..................................                                      13 


   B     D
         	 istribution .........................................................................................................   20 

                                  Chapter 1

                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA) spends millions of dollars
            annually under Emergency and Rapid Response Services (ERRS) contracts to
            provide emergency, time-critical removal and quick remedial response cleanup
            services. With the large spending comes a higher risk of fraud, waste and abuse.
            As a result, the Office of Inspector General (OIG) conducted this audit to review
            the ERRS contracts awarded in Region 6 because of the high dollar value of
            contracts and volume of emergency response work performed. Our review sought
            to answer the following questions:

                  Is Region 6 effectively managing task orders under ERRS contracts?
                  Are contractors billing costs in accordance with contract terms?

Background
            ERRS contracts are regionally-based contracts and provide cleanup personnel,
            equipment and materials to: contain, recover or dispose of hazardous substances;
            analyze samples; and conduct site restoration. The broad range of cleanup
            services needed and the rapid time frame within which the contractors must
            respond make it likely that the contractors will do substantial subcontracting–
            particularly in the area of transportation and disposal of hazardous wastes, which
            is a mandated subcontracting activity under the ERRS contracts.

            As of October 2012, there were 23 ERRS contracts operating in the 10 regions with
            expenditures of $721.7 million. The maximum potential value of all 23 contracts is
            $2.4 billion. These contracts are predominantly indefinite-delivery contracts that
            issue task orders using various pricing arrangements. The predominant pricing
            arrangement on ERRS contracts are time-and-materials. A time-and-materials
            contract acquires services on the basis of direct labor hours at specified fixed hourly
            rates that include wages, overhead, general and administrative (G&A) expenses, and
            profit. These contracts also include materials at cost.

Scope and Methodology
            We conducted this audit from November 2012 to August 2013 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives, which we believe we have done.


14-P-0109                                                                                             1
                We identified internal controls regarding the management of task orders and the
                billing of invoices by reviewing EPA policies and procedures. We assessed the
                compliance with those internal controls in the sample of task orders and invoices
                analyzed. We also reviewed Region 6’s Federal Financial Management Integrity
                Act review to determine whether it reported any internal control weaknesses
                related to contract management.

                Region 6 has two ERRS contracts: EP-S6-07-01 and EP-S6-07-02. As of October
                2012, Region 6 had issued 124 task orders under EP-S6-07-01 and 50 task orders
                under EP-S6-07-02. The combined total expended amount on both contracts, as of
                October 2012, was $77,579,001.

                To determine whether Region 6 effectively managed task orders under the ERRS
                contracts, we used a non-probability sample and selected a total of 10 task orders,
                five from each contract. We selected the sample based on higher obligation
                amounts and the type of work that was performed. For example, given the scope
                of our audit, we selected task orders that involved non-time critical removals and
                also task orders that involved emergency responses.

                To determine whether contractors are billing costs in accordance with contract terms,
                we used a judgmental selection process. We selected recent invoices and invoices
                with a large dollar value. We reviewed eight invoices, four from each contract.

                We interviewed the Region 6 staff managing contracts, including the contracting
                officer (CO), the contracting specialist, the procurement director, the project
                officer (PO), five on-scene coordinators, and two people in the management
                division who work on manpower strategy. We reviewed supporting
                documentation for each task order and invoice in our sample as well as
                compliance with applicable laws, regulations and guidance documents. During
                our audit, we found that Region 6 staff was not evaluating the qualifications of
                contractor personnel who were not considered key. Because this finding is being
                addressed in another OIG report, we did not pursue the matter in this report.

Prior Audit Coverage
                In April 2013, the OIG found that Region 9 did not require its contracting
                personnel to verify that personnel for the contractor had the qualifications
                necessary to execute a time-and-materials contract. 1 To address this issue, the OIG
                recommended that the Assistant Administrator for Administration and Resources
                Management require task order contracting officer representatives to evaluate the
                qualifications of contractor key staff proposed by the contractor in the work plan.
                The task order contracting officer representatives should also review qualifications
                for samples of the non-key staff billed on invoices.
1
 EPA OIG Report No. 13-P-0209, Opportunities for EPA-Wide Improvements Identified During Review of a
Regional Time and Materials Contract, April 4, 2013.


    14-P-0109                                                                                          2
                                  Chapter 2

                  Region 6 Needs More Frequent 

                    Internal Control Reviews 

            Region 6 manages field activities under the ERRS contracts within the terms of
            the contracts. However, our review of task order files and invoices submitted
            under those task orders showed that infrequent internal control reviews and
            inadequate staffing levels hampered Region 6’s ability to prevent and detect many
            contract management shortcomings. The EPA’s Acquisition Handbook and
            Contract Management Manual include policies and procedures that serve as
            internal controls in the contract management process. The contract management
            issues found during the course of this audit were attributable to insufficient
            internal control reviews and, according to procurement personnel, insufficient
            staff to handle the workload. When not conducting internal control reviews,
            critical aspects in the acquisition cycle cannot be assessed and, subsequently,
            strengths, weaknesses and vulnerabilities cannot be addressed properly by
            management.

Contract Management Aspects Contained in EPA Guidance
            Contract management at the EPA is guided primarily by two policies: the
            Contracts Management Manual and Acquisition Handbook. Both documents
            contain policy and procedures that serve as internal controls in the contract
            management process. The internal controls pertinent to this report are:

               	 Quality Assurance Program (QAP) – The Acquisition Handbook requires
                  the primary contracting organization, such as a regional office, to
                  establish, fully implement and sustain a QAP program. Under the QAP,
                  each contracting office is to develop, implement and maintain its own
                  unique plan to ensure its contracting processes and products are compliant
                  with governing rules and are consistently of high quality. The QAP also
                  serves as a tool to identify potential vulnerabilities and preempt the
                  creation of serious or systemic problems.

               	 Invoice reviews – According to the Contract Management Manual, the
                  CO has ultimate responsibility for invoice processing under individual
                  contracts. POs review invoices monthly, and the CO conducts periodic
                  monitoring. CO review is to ensure that the contractor and PO are
                  fulfilling their roles properly. Periodic monitoring must be at the level of
                  frequency necessary to ensure all invoice elements are charged properly.
                  Periodic monitoring may include at least one detailed review of an invoice
                  on each contract each year.




14-P-0109                                                                                        3
Effective Contract Management Lacking in Crucial Areas
            Region 6 manages field activities under the ERRS contracts within the terms of
            the contract. However, our review of task order files and invoices submitted under
            those task orders showed that infrequent internal control reviews and inadequate
            staffing levels hampered Region 6’s ability to prevent and detect many of the
            contract management shortcomings described in table 1.

            Table 1: Contract management shortcomings
            Issue area                Condition observed
            Annual invoice reviews    Seven out of 10 required annual invoice reviews were
                                      not performed.
            Adjustment vouchers       One adjustment voucher was not submitted within the
                                      required 60 days and another voucher was not submitted
                                      at all.
            Subcontract agreements    Eight of 10 team subcontract agreements were not
                                      received in the required timeframe.
            Definitized task orders   One of 10 task orders was not definitized within 5 days.
            EPA’s Acquisition System  Five out of 10 task orders were coded incorrectly in the
                                      EPA’s Acquisition System.
            Source: OIG analysis.

            The awarding CO under Region 6’s ERRS contracts did not perform seven out of
            10 required annual invoice reviews. One contract only had two annual invoices
            reviewed and the other contract only had one annual invoice reviewed. Both
            contracts were entering the sixth year of performance and each contract should
            have had five CO annual invoices reviewed at the time we conducted the audit.

            The CO and PO do not monitor the submission of adjustment vouchers for the
            prime contractors under both contracts. These adjustment vouchers reflect the
            negotiated indirect cost rate between the prime contractor and cognizant federal
            agency. Once the indirect cost rate is negotiated, prime contractors submit
            vouchers that reflect the difference between the billed indirect costs and the
            indirect costs resulting from the negotiated agreement. Out of the eight invoices
            we reviewed, we noted one instance where the adjustment voucher was not
            submitted within the required 60 days and one instance in which the adjustment
            voucher had not been submitted as of March 2013, making it more than 6 months
            late.

            Team subcontractors are contractors that the prime contractor identifies in its
            proposal that will conduct work under the contract. The CO and PO for both
            contracts did not receive eight out of the 10 team subcontract agreements in the
            required timeframe. The contract requires that within 5 (calendar) days of the
            issuance of a notice to award, the contractor must provide the team subcontract
            agreement to the CO and PO. The team subcontractor agreements are contracts
            between the prime contractor and team subcontractor and serve to formalize that
            legal relationship.



14-P-0109                                                                                        4
            One out of 10 task orders reviewed was not definitized within 5 days as required
            by the contract. Instead, contractors performed services based on a verbal
            authorization for 31 days before the task order was put into writing. A verbal
            authorization usually occurs when it is impossible to negotiate the terms due to
            time constraints and the criticality of the requirements. In this case, changing staff
            delayed the definitization of the task order. The period of time in which a task
            order is not definitized can pose significant risks to the government. For example,
            the government may pay increased costs during the undefinitized period because
            the contractor has little incentive to control costs.

            We reviewed EPA’s Acquisition System and found five out of 10 task orders
            were coded incorrectly. Those five task orders were coded as fixed-price when
            they were actually time-and-materials task orders.

            Procurement personnel for Region 6 stated that the section’s staffing levels were
            inadequate based on the workload-to-staff ratio. The director provided us with a
            matrix developed in November 2012 that detailed crucial acquisition activities
            that were not being performed at all or that were being performed sporadically at
            different staffing levels. The procurement activities that are not being performed
            at the current staffing level include the following:

               	   Contract placement (oversight, quality assurance reviews and cost
                    analysis): Region must outsource major contract placements to other EPA
                    locations.
               	   Training and outreach: No training or customer outreach can be done at
                    this staffing level.

            Meanwhile, the procurement activities being performed sporadically at the current
            staffing level include the following:

               	   Contract management (oversight, quality assurance reviews, cost analysis,
                    filing and data entry).
                   Simplified acquisitions (oversight and quality assurance reviews).
                   Contract close-out.
                   Commenting on and responding to new acquisition guidance and policy.
                   Reading, digesting and implementing new acquisition guidance and
                    policy.
                   Responding to the Office of Acquisition Management’s data calls.

Infrequent Internal Control Reviews Hinder Effective
Contract Management
            Infrequent internal control reviews allowed the contract management issues to
            occur. These internal control reviews are not being conducted as often as required
            per Region 6’s QAP. The QAP requires that internal control reviews, which the
            document refers to as peer reviews, occur semiannually. The purpose of the


14-P-0109                                                                                            5
            review is to ensure that COs are properly exercising their authority and to ensure
            that individuals and the organization comply with applicable rules and
            regulations. Procurement personnel indicated to us that they do not have the
            adequate amount of staff to perform the reviews. These reviews are a key element
            in Region 6’s quality control program. Without them, crucial aspects in the
            acquisition cycle cannot be assessed and, subsequently, strengths, weaknesses and
            vulnerabilities cannot be exposed properly by management.

Recommendations
            We recommend that the Regional Administrator, Region 6:

               1.	 Require procurement personnel to conduct internal control reviews twice a
                   year; or

               2.	 Identify contract management as a weakness in Region 6’s next
                   Federal Managers’ Financial Integrity Act annual assurance letter unless
                   Region 6 starts conducting internal control reviews twice a year.

Agency Response and OIG Evaluation
            Recommendations 1 and 2 represented an either/or option as they were linked
            together. EPA Region 6 agreed with our findings and opted for recommendation 1,
            namely, that it pledged to conduct internal control reviews twice a year. The OIG
            believes that doing so will help Region 6 effectively monitor its contract
            vulnerabilities and be proactive about reducing contract risk. Therefore, we
            consider recommendations 1 and 2 adequately addressed because Region 6’s
            proposed corrective action, when implemented, will address the problems
            identified.




14-P-0109                                                                                        6
                                                Chapter 3

                             Contractor Applying G&A Rate 

                              Inconsistent With Rate Letter 

                    One of Region 6’s prime ERRS contractors is incorrectly applying a general and
                    administrative rate to its team subcontractors’ other direct costs (ODCs). Based on
                    the contractor’s negotiated indirect cost rate letter, team subcontractors should
                    have received the lower subcontract administration rate and not the higher G&A
                    rate. The prime contractor’s proposal and indirect cost rate letter do not clearly
                    distinguish between team and non-team subcontractor costs. This has resulted in
                    the prime contractor overbilling subcontractor indirect costs.

                    The indirect cost rate agreement describes how contractors apply indirect costs.
                    The rate agreement identifies the type of expense pool, the basis of application,
                    the applicable rate, the contracts affected and the period to which the rate will
                    apply. The expense pool represents a grouping of indirect costs such as fringe
                    benefits, overhead and G&A expenses. The basis for application identifies
                    whether the indirect cost rate is applied to direct labor costs, subcontract costs or
                    some other combination of costs. The basis for application will vary by contractor
                    and is based on the contractor’s accounting system. The indirect cost rate
                    agreement is considered part of each contract.

                    One of Region 6’s prime ERRS contractors did not follow its own proposal and
                    indirect cost rate letter when it applied G&A to its team subcontractors’ ODCs.
                    When we reviewed one prime contractor’s proposal, we determined that the
                    contractor has several pools for allocating indirect costs. Of importance to this
                    audit were the contractor’s G&A and subcontract administration pools. The basis
                    for application, per the contractor’s negotiated rate agreement, is as follows:

                             G&A: Total costs incurred excluding G&A and subcontract costs.
                             Subcontract Administration: Direct subcontract costs.

                    During our review of task order files and invoices under this contract, we
                    determined that the prime contractor was applying the higher G&A rate to its
                    team subcontractors’ ODCs.2 Based on this contractor’s proposal and indirect rate
                    letter, team subcontractors should have received the subcontract administration
                    rate and not the higher G&A rate. The contractor’s negotiated indirect cost rate
                    letter states that the G&A pool’s basis for application does not include subcontract
                    costs. The subcontract administration rate is substantially lower than the G&A
                    rate.



2
    The rates are not being disclosed in this report because they are confidential business information.


    14-P-0109                                                                                               7
                  The proposal does not clearly differentiate between team and non-team
                  subcontractors. The proposal also contradicts itself in describing how the indirect
                  costs associated with team subcontractors should be applied. Under the
                  contractor’s “General Information” section of its proposal, it states that,
                  “Non-team subcontractor costs will be billed at cost plus a mark-up for
                  Subcontract Administration costs.” This would indicate that team subcontractors
                  are to receive the G&A rate as opposed to the subcontract administration rate.
                  However, the prime contractor’s proposal states that its accounting practice is to
                  apply subcontract administration rates on all subcontractor costs.

                  The prime contractor has been overbilling team subcontractors’ ODCs by
                  applying the G&A rate instead of the subcontract administration rate. In three of
                  the five invoices analyzed, the contractor overbilled by a total of $3,435. This
                  practice results in the government paying a higher rate for subcontract indirect
                  costs.

Recommendations
                  We recommend that the Regional Administrator, Region 6:

                      3.	 Direct COs to require that the contractor adjust all its billings to reflect the
                          application of the correct rate to team subcontract ODCs.

                      4.	 Direct COs to work with the contractors to modify future billings.

Agency Response and OIG Evaluation
                  EPA Region 6 did not agree with recommendations 3 and 4. Region 6 reviewed a
                  Defense Contract Audit Agency audit, Financial Administrative Contracting
                  Officer review, contractor’s statement, and Removal Cost Management System
                  data and concluded that the contractor is applying the correct G&A rate to the
                  team subcontract ODCs. We reviewed the EPA and Defense Contract Audit
                  Agency reports, and neither specifically addressed the application of the G&A
                  rate to team subcontract ODCs. In addition, the reports are more than 5 years old
                  and may not reflect current practices.

                  After receiving the response, the OIG discussed the disagreement at the exit
                  conference, exchanged additional information, and had several followup
                  discussions in order to try and reach agreement on the finding. Region 6 obtained
                  assistance from Office of Acquisition Management (OAM) to further analyze the
                  issue. OAM determined that the contractor should have been applying a
                  composite rate to team subcontractor ODCs. The composite rate consisted of a
                  handling charge plus the contractor’s subcontractor administration rate.3 The
3
 The subcontractor agreements state that the subcontractor can charge a handling charge if consistent with the
subcontractor’s accounting system. There is no evidence that the EPA or the contractor has verified that the handling
charge was consistent with the subcontractor’s system.


    14-P-0109                                                                                                           8
            composite rate was not mentioned in the contractor’s proposal or contract.
            However, the agency believes it is a valid cost since the handling fee was
            included in the contractor’s agreements with the team subcontractors. According
            to OAM, the contractor should have been using a composite rate. Instead, the
            contractor was using its G&A rate in the billings. According to Region 6, the
            G&A rate was applied because the Removal Cost Management System that is
            used to create the invoices only allows one indirect cost rate.

            OAM did recommend that if the supporting explanation and documentation
            proved acceptable to the OIG, the contracting officer could take corrective action
            to address the issue in the future. However, OAM believes that based on the
            review of a couple of invoices, the difference is immaterial. Further, OAM
            believes the immaterial nature of the finding does not justify the investment of
            time that would be needed to review all past invoices.

            OAM’s analysis identified that the contractor should have been applying a
            composite rate rather than the G&A rate. We agree that the contracting officer
            needs to work with the contractor to correct invoices in the future. We disagree
            regarding whether the past invoices need to be reviewed and adjusted. We
            calculated the composite rate using approved billing rates for 2008 to 2012 and
            compared it to the G&A rate that was billed. The rate billed was higher than what
            the contractor was entitled to for each of the years.

            Table 2: Difference between
            composite and G&A rate
                  Year           Difference
                  2008             2.77%
                  2009             3.26%
                  2010             3.41%
                  2011             1.03%
                  2012             1.05%
            Source: OIG analysis of contractor
            information.

            For the one invoice reviewed as part of reaching agreement on this finding, the
            difference was $85. However, the difference on each invoice will vary depending
            on the amount of team subcontractor ODCs included on the invoice and the year
            the costs were incurred. There are over 125 task orders under the contract, each
            with multiple invoices. Therefore, the OIG continues to recommend that Region 6
            work with the contractor to adjust past invoices to correct the application of
            indirect costs.

            We revised the draft report recommendations to reflect the additional analysis that
            was conducted after the draft report was issued. The audit resolution process will
            be used to resolve the recommendations.




14-P-0109                                                                                         9
                                  Chapter 4

     By Not Separating Subcontracted Labor Rates, 

     Prime Contractors Receiving Additional Profit 

            Prime contractors are billing subcontracted labor at the prime contract’s labor
            rates even though they negotiated lower rates with their subcontractors. Under
            Federal Acquisition Circular 2005-15, the Federal Acquisition Regulation (FAR)
            was amended to require offerors to establish, for each category of labor, fixed
            hourly rates using one of three options: separate rates for prime and subcontracted
            labor, blended rates, or a combination of separate and blended rates. Because this
            rule became effective shortly before the ERRS contracts were awarded, the prime
            contractors were not required to comply with the new rule when they submitted
            their proposals for these noncommercial services. As a result, the prime
            contractors on Region 6’s ERRS contracts were receiving extra profit.

            At the time the EPA analyzed the cost proposals for the ERRS contracts,
            Federal Acquisition Circular 2005-15 was not in effect. The fixed rates negotiated
            between the EPA and the ERRS prime contractors were based solely on the
            prime’s rates. These negotiated rates were then applied to the prime contractors
            and their team subcontractors. Because the rule was not in effect during the
            solicitation phase of the contract, it allowed the prime contractors to negotiate
            lower rates with its team subcontractors. The lower rates allowed the prime
            contractors to receive additional profit that was not disclosed to the EPA during
            contract negotiations.

            Our analysis determined that one of the two ERRS prime contractors negotiated
            agreements with its team subcontractors that were approximately 9.1 percent
            lower for all labor categories (excluding laborer). This spread in costs equated to
            the prime contractor receiving roughly 9.1 percent extra profit on those labor
            categories based on the difference between the rates. Our review found that for
            two task orders the prime contractor received approximately $3,600 and $12,800
            in extra profit.

            For the other ERRS contract, the prime contractor generally negotiated rates with
            its subcontractors that were lower than the established rates in the prime contract.
            For one subcontractor, the labor rates were approximately 8 percent less than the
            prime’s rates with Region 6. For another subcontractor, the labor rates in the
            agreement were 14 to 16 percent less than the prime’s rates with Region 6. The
            third subcontractor had only a few labor rates in the agreement and some labor
            rates were higher and some were lower than the prime’s rates. Overall, a majority
            of the labor rates in the subcontract agreements were significantly lower than the
            rates in the prime’s contract with Region 6.




14-P-0109                                                                                          10
            When the EPA negotiated labor rates for the ERRS contract, it only had
            information on the rates of the prime contractors employees and not the
            subcontracted labor. The prime contractor charged its own labor and team
            subcontract labor to the EPA at the negotiated rate. As a result, the prime
            contractors were receiving additional profit based on the difference between the
            rates in the prime contract and the rates in the subcontract agreements.

Recommendation
            We recommend that the Regional Administrator, Region 6:

               5.	 Require that proposals for future ERRS contracts include subcontractor
                   rates as required by the amended FAR.

Agency Response and OIG Evaluation
            EPA Region 6 concurred with recommendation 5, noting that the award of any
            future ERRS contracts would be subject to FAR and EPA Acquisition Regulation
            requirements. The OIG believes that separate or blended rates for prime
            contractors and team subcontractors make good business sense for the
            government. Each category of labor should have fixed hourly rates using separate
            rates, blended rates, or a combination of separate and blended rates to reduce the
            risk of prime contractors receiving additional profit. Consequently, we consider
            this recommendation closed.




14-P-0109                                                                                        11
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed-To
    No.      No.                           Subject                           Status1      Action Official           Date      Amount      Amount

     1        6     Require procurement personnel to conduct internal          O       Regional Administrator,    6/30/14
                    control reviews twice a year; or                                         Region 6

     2        6     Identify contract management as a weakness in              C       Regional Administrator,    9/23/13
                    Region 6’s next Federal Managers’ Financial                              Region 6
                    Integrity Act annual assurance letter unless
                    Region 6 starts conducting internal control reviews
                    twice a year.

     3        8     Direct COs to require that the contractor adjust all       U       Regional Administrator,
                    its billings to reflect the application of the correct                   Region 6
                    rate to team subcontract ODCs.

     4        8     Direct COs to work with the contractors to modify          U       Regional Administrator,
                    future billings.                                                         Region 6

     5       11     Require that proposals for future ERRS contracts           C       Regional Administrator,    9/23/13
                    include subcontractor rates as required by the                           Region 6
                    amended FAR.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





    14-P-0109                                                                                                                                        12
                                                                                      Appendix A

Agency Response to Draft Report and OIG Evaluation

                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          REGION 6

                                1445 ROSS AVENUE, SUITE 1200 

                                 DALLAS, TEXAS 75202 – 2733 


                                                                     Office of the Regional Administrator


                                       September 23, 2013


MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report No. OA-FY13-0046
          “Internal Control Reviews Would Improve Region 6’s Management of
          Emergency
          and Rapid Response Services Contracts,” dated August 20, 2013

FROM:         Ron
              	 Curry
              Regional Administrator

TO:    	      Richard Eyermann
              Acting Assistant Inspector General

Thank you for the opportunity to respond to the findings and recommendations presented in the
Office of Inspector General (OIG) Draft Report, “Internal Control Reviews Would Improve
Region 6’s Management of Emergency and Rapid Response Services Contracts”. We appreciate
the OIG’s audit of our ERRS contracts and your recommendations on internal control and
contract management.

Region 6 has reviewed the findings and has determined that the recommendations in Chapter 2
and Chapter 4 have merit for improving Region 6’s management of current and future
Emergency and Rapid Response Services (ERRS) contracts. With respect to the findings and
recommendations in Chapter 3, we do not concur with the OIG’s assertion that one contractor is
incorrectly applying a general and administrative (G&A) rate to its team subcontractors’ other
direct costs. For your consideration, we have included our position and corrective actions or
proposed alternatives to the recommendations and a Technical Comments Attachment.

Agency’s Response to Report Recommendations

Recommendation Nos. 1 and 2: The OIG identified findings related to the accuracy, timeliness or
completion of annual invoice reviews, adjustment vouchers, subcontract agreements, definitized



14-P-0109                                                                                                   13
task orders and the EPA Acquisition System. We understand that those findings are attributed to
Region 6’s non-compliance with the semi-annual Internal Control Reviews as required by the
Quality Assurance Plan (QAP). Therefore, Region 6 concurs with the conclusion and agrees to
implement a corrective action to ensure that we are complying with applicable rules and
regulations. The OIG’s recommendation was to require procurement personnel to conduct
internal control reviews twice a year or identify contract management as a weakness in Region
6’s next Federal Managers’ Financial Integrity Act annual assurance letter, unless Region 6 starts
conducting internal control reviews twice a year. Due to the OIG’s either-or option in
Recommendation Nos. 1 and 2, we have decided to combine the recommendations with the
understanding that our final decision will negate the need for the other corrective action.
Subsequently, we decided to implement Recommendation No. 1, and our corrective action is to
conduct internal control reviews in the 1st Quarter of FY 2014 and 3rd Quarter of FY 2014 and in
accordance with the Peer Review Process in the QAP.
Recommendation Nos. 3 and 4: The OIG reviewed the ERRS prime contractors’ proposal and
indirect cost rate letters and concluded that the documents do not clearly distinguish between
team and non-team subcontractor other direct costs (ODCs) with regards to the application of
G&A or subcontract administration G&A. Due to this ambiguity, the OIG asserts that one
contractor is incorrectly applying a G&A to its team subcontractors’ other direct costs and this
practice may result in the government paying a higher rate for subcontract indirect costs. As
corrective actions, the OIG recommended that we direct the COs to require that the contractor
adjust all its billings to reflect the application of the subcontract administration rate to team
subcontract ODCs and direct the COs to modify the contract to explicitly explain that team
subcontract ODCs receive subcontract administration rate.

We understand the OIG’s concerns and we have made many efforts to determine the contractor’s
intent at pre-award and its accounting practice after contract award. We reviewed a Defense
Contract Audit Agency (DCAA) audit, Financial Administrative Contracting Officer (FACO)
review, contractor’s statement, and Removal Cost Management System (RCMS) data and
concluded that the contractor is applying the correct G&A rate to team subcontract ODCs.
Therefore, Region 6 does not concur with Recommendation Nos. 3 and 4. Our corrective action
is to remove the ambiguity in the contract via a modification to explicitly explain that team
subcontract Other Direct Costs (ODCs) will receive the general and administrative (G&A) rate.
We have combined Recommendation Nos. 3 and 4 in our response because they are integrally
related to each other. Additionally, OAM reviewed the Region’s response to Recommendation
No. 3 and concurs with this position. For your consideration, we are providing the following
results of our review.

Defense Contract Audit Agency: The DCAA examined the contractor’s Indirect Cost Pools and
Allocation Bases to determine if the accounting system provided for, in part, the following
procedures:

    Direct and indirect costs are appropriately identified, accumulated, and reported; and
    Indirect costs are allocated equitably and consistently to contracts and other cost objectives.

Based on DCAA Audit Report No. 1621-2006B17740009 dated October 24, 2006, the contractor’s
accounting system is adequate for accumulating and billing costs under government contracts.


14-P-0109                                                                                              14
Although the aforementioned audit was conducted seven (7) months prior to the award, the
current contract is a follow-on requirement to the previous ERRS contract, in which the general
and administrative (G&A) rate was applied in the same manner (i.e. G&A rate applied to team
subcontract ODCs).

Financial Administrative Contracting Officer: The FACO reviewed the contractor’s accounting
and financial records under the contract. The FACO released Financial Monitoring Report No.
8DFM010 dated July 29, 2008 in which a finding was identified that related to the contractor’s
Value Added Total Cost Input G&A base. The report stated that the contractor incorrectly
excluded subcontract administration labor, fringe benefits applicable to subcontract
administration labor and warehouse labor from its value added G&A base calculation; however,
the report did not identify any findings related to an incorrect application of the G&A rate to
team subcontract Other Direct Costs.

Contractor’s Statement: “This practice has been a standard and consistent practice on our ERRS
contracts, it is fully compliant with our contracts, and it is in compliance with our accounting
system and practices. There is no documentation related to this practice from previous audits
because no auditors have questioned or disputed this practice.”

Removal Cost Management System: Region 6 reviewed and verified data through RCMS
related to the application of the G&A rate to team subcontract ODCs under the ERRS
contracts in Region 5, 9 and 10. Our internal review indicated that the contractor applied a
standard and consistent business practice for team subcontract ODCs under the contractor’s
ERRS contracts.

Recommendation No. 5: The OIG reviewed the ERRS labor rates in the proposals and contract
files and concluded that Region 6 did not require separate or blended rates for the prime contractor
and team subcontractors. Under the Federal Acquisition Circular 2005-15 and the subsequent FAR
amendment, contractors are required to establish, for each category of labor, fixed hourly rates
using separate rates, blended rates, or a combination of separate and blended rates. When the FAC
2005-15 came into effect, Region 6 was in the process of awarding the contracts. The OIG
recognized the timing issue with the current ERRS contracts and recommended that we require
proposals for future ERRS contracts to include subcontractor rates as required by FAR 52.216-29.

Region 6 concurs with the recommendation for future ERRS contracts and we agree to comply
with FAR and EPAAR requirements in effect. Our intent is to recommend negotiated blended
labor rates to the ERRS Placement Contracting Officers.

Furthermore, the Office of Acquisition Management (OAM) stance on FAR 52.216-29 is to
follow the FAR as written. Additionally, Chapter 1 in the Acquisition Handbook does not
contain a class deviation for ERRS solicitations. Should the ERRS Program request a class
deviation, a Determination & Findings (D&F) must be processed and submitted through the
Policy, Training and Oversight Division (PTOD) to the Senior Procurement Executive (SPE) for
review and approval.




14-P-0109                                                                                              15
Response to Recommendations Table

Findings Region 6 is in agreement

 No. Recommendation                 High-Level Intended Corrective                 Estimated Completion
                                    Action(s)                                      by Quarter and FY
 1    Require procurement           Region 6 concurs with Recommendation           1st Quarter FY 2014
      personnel to conduct          No. 1 and agrees to conduct internal control   and 3rd Quarter FY
      internal control reviews      reviews in accordance with the Peer            2014
      twice a year.                 Review Process in the Quality Assessment
                                    Plan (QAP).

 2    Identify contract             Region 6 agreed to the corrective action in    Not Applicable
      management as a               Recommendation No. 1; therefore, a
      weakness in Region 6’s        corrective action for Recommendation No.
      next Federal Managers’        2 is not required.
      Financial Integrity Act
      annual assurance letter
      unless Region 6 starts
      conducting internal
      control reviews twice a
      year.

 5    Require that proposals for    Region 6 concurs with Recommendation           FY 2015
      future ERRS contracts         No. 5 and agrees to require proposals for
      include subcontractor         future ERRS contracts to include
      rates as required by the      subcontractor rates as required by the
      amended FAR.                  amended Federal Acquisition Regulations
                                    (FAR) and to recommend negotiated
                                    blended rates to the Placement Contracting
                                    Officers.




14-P-0109                                                                                           16
Findings Region 6 is in disagreement

 No. Recommendation                   Agency Explanation/Response                 Proposed Alternative
  3     Direct COs to require that    Region 6 does not concur with               The contractor’s
        the contractor adjust all     Recommendation No. 3.                       billings shall remain
        its billings to reflect the                                               unchanged.
        application of the            Based on the DCAA audit, FMR,
        subcontract                   contractor’s statement, and an internal
        administration rate to        data review, Region 6 determined that the
        team subcontract ODCs.        contractor’s billings shall remain
                                      unchanged.

  4     Direct COs to modify the      Region 6 does not concur with               The COs shall modify
        contract to explicitly        Recommendation No. 4.                       the contract to
        explain that team                                                         explicitly explain that
        subcontract ODCs receive      Refer to Region 6’s explanation on Pages    team subcontract
        subcontract                   2 and 3 of this response.                   ODCs receive the
        administration rate.                                                      G&A rate.



Contact Information

If you have any questions about this letter, please call me at (214) 665-2100, or your staff may
contact Susan Jenkins, Audit Follow-up Coordinator, at (214) 665-6578, or by email at
jenkins.susan@epa.gov.

Attachment

cc: 	    Kevin Christensen, OIG
         Janet Kasper, OIG
         Michael Petscavage, OIG
         David Penman, OIG
         Andres Calderon, OIG
         Samuel Coleman, R6
         James McDonald, R6/MD
         Ronnie Crossland, R6/MD
         Regina Milbeck, R6/MD
         Carl Edlund, R6/SF
         Pam Phillips, R6/SF
         Connie Suttice, R6/SF
         Anthony Talton, R6/SF
         Susan Jenkins, R6/MD




 14-P-0109                                                                                            17
          Response to Office of Inspector General Draft Report No. OA-FY13-0046
      “Internal Control Reviews Would Improve Region 6’s Management of Emergency
              and Rapid Response Services Contracts,” dated August 20, 2013

                           Technical Comments on the Draft Report

While we agree with most of the findings and recommendations, we have included Technical
Comments on the contract management shortcomings identified in Chapter 2 to further explain
the procurement and program office activities related to the findings and to clarify or improve the
accuracy of specific details in the report.

Page 4, Chapter 2 – Table 1: Contract Management Shortcomings:

Annual Invoice Reviews – Although the Administrative Contracting Officers could not locate
seven (7) out of ten (10) annual invoice reviews for the prior periods, the three (3) reviews that
were in the files were for the most recent required review periods (i.e. one for 2011 and two for
2012).

It should be noted that the Administrative Contracting Officers identified the contract
management shortcomings of the Awarding Contracting Officers and implemented a corrective
action by conducting the required annual invoice reviews that were due at the time.

Adjustment Vouchers – The adjustment vouchers are required for negotiated interim and final
Indirect Cost Rates (ICR), and the vouchers must be submitted within sixty (60) days. Although
the voucher submissions were not timely, all monies due to the Government or to the contractors
for prior year indirect cost rates must be settled after contract completion and final DCAA ICR
audits and before contract closeout.

It should be noted that a corrective action has been implemented that requires the Project Officer
to monitor the submission of ICR adjustment vouchers and requires the Contracting Officer to
verify the receipt of periodic ICR adjustment vouchers during the annual invoice review process.

Subcontract Agreements – The Team Subcontract Agreements were not submitted to the
Awarding Contracting Officers and Project Officer within five (5) calendar days of the issuance
of a notice of award; however, the delayed submission of formal team subcontract agreements
did not have a financial or technical impact on the contracts.

As a corrective action, it should be noted that the Administrative Contracting Officers will
recommend to the Placement Contracting Officers for the future ERRS contracts to review the
requirement and make a determination regarding the reasonableness of the contractor’s
timeframe to fully execute and submit formal team subcontract agreements to the Government.

Definitized Task Orders – One out of ten task orders was not definitized by the Awarding
Contracting Officer within five (5) days due to an administrative oversight related to internal
staffing changes (i.e. the transfer of the Contract Specialist to another EPA Section and Division,
and the changing of Administrative Contracting Officers).




14-P-0109                                                                                             18
It should be noted that the administrative oversight only occurred once under the contracts. If
the subject task order was excluded from the sample because of the unusual circumstances or
replaced with another similar type of task order, it is our opinion that Region 6 success rating
would be 100%, which is effective and efficient contract management.

Furthermore, from an administrative and technical standpoint, the delayed definization did not
pose any significant financial or technical risks to the Government because a Contracting Officer
Technical Representative (COTR)/On-Scene Coordinator (OSC) was assigned to the project
when the verbal authorization for services was given to the contractor. The COTR/OSC
safeguarded the Government and controlled costs by being on-site during performance,
providing daily technical direction to the contractor, reviewing and signing daily 1900-55s of all
costs incurred, and developing a cost estimate and Statement of Work within five (5) days. As a
result, there were no changes in field performance/activities or an increase in government costs.

EPA’s Acquisition System (EAS) – The system default for the Award Type/pricing
arrangement on all EPA orders is “Firm-Fixed Price” regardless of the contract pricing
arrangement, which poses a national EAS data quality issue.

The Administrative Contracting Officers (COs) identified the system default issue prior to this
audit and was working with the national EAS Focus Workgroup on a resolution to change the
award type/pricing arrangement from “Firm-Fixed Price” to “Time-and-Materials”. Also, the
COs presented the issue to OAM’s Information Technology Service Center (ITSC) and
recommended two options, one was the removal of the default feature (i.e. automatic population
of the field), which would allow for user selection, and the other was to retain the default feature
but with the automatic population of the contract pricing arrangement as the award type. The
COs recommendation was not implemented by ITSC, and the EAS default remains unchanged.
Nonetheless, the paper file is the official contract file, and all task orders under the ERRS
contracts fall under the “Time-and-Materials” pricing arrangement, unless otherwise negotiated
as “Firm-Fixed Price” and stated on the task order in the official contract file.

It should be noted that the Administrative Contracting Officers understand that data quality is
important and necessary so they have implemented a corrective action to verify and validate that
the information in the EAS award type field is consistent with the official contract file.
Additionally, the COs have taken corrective action by changing the award type on incorrectly
coded task orders in EAS when a modification is required.




14-P-0109                                                                                              19
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Regional Administrator, Region 6
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and Resources Management
Deputy Regional Administrator, Region 6
Chief, Procurement Section, Region 6
Contract Specialist, Emergency and Rapid Responses Services Contracts, Region 6
Audit Follow-Up Coordinator, Region 6




14-P-0109                                                                                   20
